CERTIFICATE OF COMPLIANCE
Counsel of Record hereby certifies that pursuant Rules of the
Supreme Court of the United States, Rule 13.1, the enclosed brief of
California Virtual Academies is produced on 12 point or greater –
Century Schoolbook font type including footnotes and contains 5,074
words, which is less than the total words permitted by the rules of
court. Counsel relies on the word count of the computer program used
to prepare this brief.

October 30, 2020

YOUNG, MINNEY & CORR, LLP
By:

PAUL C. MINNEY
Attorney for Petitioner
CALIFORNIA VIRTUAL ACADEMIES

29

